                      Improved Policies and Accounting
                      Are Needed for Child Care Centers

                                      July 2004

                       Reference Number: 2004-10-121




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.

Redaction Legend:
7 = Predecisional staff recommendations or suggestions to agency decision makers.
8 = Information reflecting the Bureau’s decision-making process.
                                             DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




INSPECTOR GEN ERAL
      for TAX
  ADMINISTRATION




                                                    July 16, 2004


       MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT


       FROM:                         Gordon C. Milbourn III
                                     Acting Deputy Inspector General for Audit

       SUBJECT:                      Final Audit Report - Improved Policies and Accounting Are
                                     Needed for Child Care Centers (Audit # 200310033)


       This report represents the results of our review of Internal Revenue Service (IRS) child
       care centers. The overall objective of this review was to determine whether the costs
       paid by the IRS for child care centers are commensurate with the benefits received. We
       conducted the audit because of concerns expressed by the IRS over the high costs paid
       by the Federal Government for child care centers.
       In summary, the General Services Administration (GSA) has overall responsibility for
       administering child care centers, since the facilities are located in GSA-managed
       buildings. The GSA Child Care Program consists of 112 child care centers serving
       about 7,800 children.1 The child care centers we visited were well maintained,
       accredited by the National Association for the Education of Young Children, operating at
       full capacity, and had waiting lists. However, we do have the following concerns about
       the program:
             .. The cost of child care centers and employee participation are not tracked.
                Without this information, the costs and benefits to participating agencies such as
                the IRS cannot be determined.
             .. Several of the child care centers for which the IRS is charged a portion of the
                operating expenses do not meet the requirement that at least 50 percent of the
                children attending the center be the dependents of Federal Government
                employees or contractors.
             .. The IRS has been inconsistent in the child care subsidy amounts it has paid and
                the time periods it has made the child care subsidy available. As such,
                lower-income employees receive very little benefit from the subsidy program.

       1
           GSA 2003 Annual Profile Report.
                                                        2

    .. 7, 8--------------------------------------------------------------------------------- - -------------
       -------------------------------
We recommended the Chief Human Capital Officer, Chief Financial Officer, and Chief,
Agency-Wide Shared Services, ensure all expenses incurred for child care centers in
buildings managed by the IRS can be recorded and associated with the Child Care
Program. We also recommended that the Chief Human Capital Officer determine
whether the IRS can fund the Child Care Subsidy Program for a full year, and that the
Chief Human Capital Officer and Chief, Mission Assurance, apply adequate screening
procedures before providing non-IRS employees access to IRS campus grounds.
Management’s Response: IRS management agreed with most of our
recommendations. To address the concern about recording expenses associated with
the Child Care Program, the Chief Human Capital Officer will coordinate efforts to
ensure all expenses incurred for child care centers in buildings managed by the IRS are
properly recorded. In response to our concerns about stable funding for the Child Care
Subsidy Program, the IRS has suspended funding for the Subsidy because it was not
supporting recruitment and retention objectives. The IRS did not agree with our
recommendation to apply adequate screening procedures before providing non-IRS
employees access to IRS campus grounds. Management’s complete response to the
draft report is included as Appendix IV.
Office of Audit Comment: While we agree the IRS does not have the authority to deny
enrollment in a GSA child care center, we still believe the IRS should either adequately
screen individuals without Federal Government credentials or subject them to a limited
background check before providing them access to IRS campus grounds. We did not
recommend that individuals be denied enrollment in child care centers. While we still
believe our recommendation is worthwhile, we do not intend to elevate our
disagreement concerning this matter to the Department of the Treasury for resolution.
Due to the nature of some material in this report, we have placed on the public Treasury
Inspector General for Tax Administration (TIGTA) Internet web site a redacted version
of the report. If you identify a need to release this report to anyone outside of the IRS,
please refer them to the redacted version on the TIGTA Internet web site.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.




2
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the computing centers for analysis and posting to taxpayer accounts.
                               Improved Policies and Accounting Are Needed
                                          for Child Care Centers




                                                  Table of Contents


Background ...........................................................................................................Page 1
The Costs of Child Care Centers Are Not Tracked.........................................Page 2
          Recommendation 1: ................................................................. Page 4

Some Child Care Centers Do Not Meet the Required
Percentage of Use by Dependents of Federal Government
Employees .............................................................................................................Page 4
Administration of the Child Care Subsidy Program Needs
to Be Improved .....................................................................................................Page 6
          Recommendation 2: ................................................................. Page 9

7, 8-------------------------------------------------------------------- -
---------------------------------------------------------- ----------------------..........
                                                                                      .................Page 10
          Recommendation 3: ................................................................. Page 11

Appendix I – Detailed Objective, Scope, and Methodology ..........................Page 13
Appendix II – Major Contributors to This Report.............................................Page 15
Appendix III – Report Distribution List...............................................................Page 16
Appendix IV – Management’s Response to the Draft Report .......................Page 17
             Improved Policies and Accounting Are Needed
                        for Child Care Centers

                         The Congress has given Federal Government agencies the
Background               authority to allot space in Federal Government offices for
                         child care centers for the benefit of their employees. 1 The
                         legislation providing this benefit is known as the Trible
                         Amendment (passed by the Congress in 1985) and requires
                         that at least 50 percent of children enrolled in each child
                         care center be dependents of Federal Government
                         employees or contractors. The remaining enrollment may
                         be open to the community; however, children of Federal
                         Government employees or contractors should be given
                         enrollment priority over community children.
                         The General Services Administration (GSA) has overall
                         responsibility for establishing and overseeing the child care
                         centers since the facilities are located in GSA- managed
                         buildings. As authorized by law, the GSA provides finished
                         space, playground equipment, furniture, utilities, and
                         janitorial services without charge.
                         However, the GSA does not directly operate the child care
                         centers. It issues licenses to day care service providers. The
                         child care providers run the centers and are responsible for
                         hiring teachers, establishing curriculum, marketing the
                         centers, maintaining liability insurance, and providing
                         incidental items such as toys, dishes, and food. The child
                         care providers charge monthly tuition to the parents of
                         children enrolled in the centers.
                         The GSA Child Care Program currently oversees 112 child
                         care centers in 31 states, the District of Columbia, and
                         Puerto Rico. According to the GSA, these 112 centers have
                         7,799 children enrolled (4,297 children of Federal
                         Government employees and 3,502 children of parents who
                         are not employed by the Federal Government). 2
                         An additional child care benefit became available during
                         2001 when the Congress authorized Federal Government
                         agencies to provide child care tuition assistance to
                         lower- income employees to help enable them to afford the



                         1
                             40 U.S.C. § 590 (formerly 40 U.S.C. § 490b, 1985).
                         2
                             GSA 2003 Annual Profile Report.
                                                                                  Page 1
                       Improved Policies and Accounting Are Needed
                                  for Child Care Centers

                                   cost of child care. 3 This benefit was intended to help
                                   agencies hire and retain employees in lower income
                                   brackets.
                                   This review was performed at the IRS National
                                   Headquarters in Washington, D.C., in the Agency-Wide
                                   Shared Services (AWSS) Division and the office of the
                                   Chief Human Capital Officer during the period August
                                   through November 2003. Site visits were made to the IRS
                                   offices in Denver, Colorado, and IRS campuses 4 in
                                   7, 8-------------------------------------------------- We performed
                                   this audit at the request of the IRS.
                                   The audit was conducted in accordance with Government
                                   Auditing Standards. Detailed information on our audit
                                   objective, scope, and methodology is presented in
                                   Appendix I. Major contributors to the report are listed in
                                   Appendix II.

The Costs of Child Care Centers    The IRS pays the GSA part of the operating costs for
Are Not Tracked                    47 child care centers. However, neither the IRS nor the
                                   GSA could provide us with the actual costs paid for these
                                   centers. Costs associated with child care centers are
                                   categorized as “joint use” charges by the GSA. Joint use
                                   charges are rents and operating costs for amenities such as
                                   cafeterias, child care centers, fitness centers, nurses’
                                   stations, shared conference rooms, and visitor parking
                                   spaces. The costs for these services are allocated to all
                                   tenants in a GSA-owned or GSA- leased building based on
                                   each tenant’s percentage of building occupancy. Monthly
                                   rent invoices the GSA provides the IRS show joint use
                                   charges as one amount—there is no detail provided to show
                                   the cost of child care centers. The GSA bills building
                                   tenants for joint use space regardless of whether each
                                   agency’s employees use the joint use facilities.
                                   According to GSA officials, it would not be feasible for the
                                   GSA to keep an accurate accounting of the costs and


                                   3
                                     Pub. L. 107-67, § 630, (2001), Agency Use of Appropriated Funds for
                                   Child Care Costs for Lower Income Employees.
                                   4
                                     The data processing arm of the IRS. The campuses process paper and
                                   electronic submissions, correct errors, and forward data to the
                                   computing centers for analysis and posting to taxpayer accounts.
                                                                                                 Page 2
Improved Policies and Accounting Are Needed
           for Child Care Centers

            participation for this program. The GSA does not keep
            information as to the cost of the child care centers in each
            building or the cost paid for these facilities by each Federal
            Government agency. The child care providers collect the
            information as to whether enrollees are children of Federal
            Government employees but do not have accurate
            information regarding which Federal Government agency
            employs the parents of these children.
            Even in the buildings the IRS manages, 5 the IRS does not
            have an accurate assessment of the costs of child care
            centers because it does not identify in its accounting records
            the expenses for office space and other items associated
            with these child care facilities. The Requisition Tracking
            System, the database the IRS uses when purchasing
            equipment and supplies, does not have a code to categorize
            items purchased for use in the child care centers.
            The IRS conducted a survey in early 2003 to try to gather
            information as to its total cost for child care facilities.
            However, it was unable to obtain reliable results because
            two child care centers were not included in the survey, four
            child care centers did not respond, and the rest of the centers
            provided only best guess estimates of actual costs.
            Without information on the cost of child care centers and
            employee participation, the costs and benefits to
            participating agencies such as the IRS cannot be determined.
            All the same, child care is an important employee service
            that should be subjected to better financial management
            scrutiny than that currently performed at the IRS. While the
            GSA cannot provide information on the buildings it
            manages, we believe the IRS should act on its own to collect
            rent and other related costs so they can be associated with its
            child care operations. Such information should serve the
            IRS in its program and financial control of this service.




            5
              The GSA places some buildings occupied by the IRS in “delegated”
            status. These buildings are 100 percent occupied by the IRS and, in
            exchange for reduced GSA rent charges, the IRS pays operating
            expenses in these facilities.
                                                                           Page 3
                       Improved Policies and Accounting Are Needed
                                  for Child Care Centers

                                   Recommendation

                                   1. The Chief Human Capital Officer, Chief Financial
                                      Officer, and Chief, AWSS, should work together to
                                      ensure all expenses incurred for child care centers in
                                      buildings managed by the IRS can be properly recorded
                                      and associated with the Child Care Program.
                                   Management’s Response: The Chief Human Capital Officer
                                   will coordinate efforts to ensure all expenses incurred for
                                   child care centers in buildings managed by the IRS are
                                   recorded and associated with the Child Care Program. The
                                   Chief, AWSS, will assist in identifying some of the building
                                   operating costs at the IRS delegated sites.
                                   During the review, we visited four child care centers. The
Some Child Care Centers Do Not
                                   centers were in excellent condition, the student-teacher
Meet the Required Percentage of
                                   ratios were appropriate, the centers were operating at full
Use by Dependents of Federal
                                   capacity, and the centers had waiting lists. All four centers
Government Employees               were accredited by the National Association for the
                                   Education of Young Children. However, 2 of the 4 centers
                                   we visited did not comply with the requirement in the Trible
                                   Amendment that at least 50 percent of children enrolled in a
                                   child care center at Federal Government facilities be
                                   dependents of Federal Government employees or
                                   contractors. Table 1 shows the enrollment statistics of the
                                   four child care centers we visited.
                                                 Table 1: Enrollment at Child Care Centers Visited
                                                              (as of November 2003)

                                                                     Children of
                                                        Children of                      Total    Federal
                                                                    Other Federal Other
                                   Child Care Center       IRS                          Children Government
                                                                    Government Children
                                                        Employees                       Enrolled Percentage
                                                                     Employees

                                   7, 8-------                32         6         29      67        56.7%
                                   ------- -                  37        10         66     113        41.6%
                                   Denver –                    0        56         36      92        60.9%
                                   Fed Center
                                   Denver –                    1         9         35      45        22.2%
                                   Speer Blvd.
                                   Source: Child care center records.

                                   This Trible Amendment provision was established to help
                                   ensure child care centers at Federal Government facilities

                                                                                                     Page 4
Improved Policies and Accounting Are Needed
           for Child Care Centers

            were primarily for the use of dependents of Federal
            Government employees or contractors rather than being
            general child care providers. Nationwide, out of the
            7,799 children enrolled in GSA centers, 4,297 (55 percent)
            are dependents of Federal Government employees.
            However, the Trible Amendment’s 50 percent requirement
            applies for each individual child care center.
            When centers are not in compliance with the Trible
            Amendment, the cost of child care facilities to Federal
            Government tenants of GSA buildings increases
            significantly on a per child basis. For example, in 1 Denver
            child care center we visited, the IRS estimates that the share
            it pays for the facilities is $35,000 a year; at this center, only
            1 IRS employee has a child enrolled. Table 2 shows the
            number of children of IRS employees at each facility and
            the estimated cost per child paid by the IRS.
             Table 2: Estimated Annual Cost per Child of an IRS Employee for
                       Child Care Centers Visited (Fiscal Year 2003)

                                        Total        Number of Children Annual Cost per
               Child Care Center      Annual Cost     of IRS Employees  Child of an IRS
                                    (IRS Estimate)         Enrolled       Employee

             7, 8-------              $137,800                32             $4,306
             ------- -                $176,700                37             $4,776
             Denver – Fed Center          $770                 0               N/A
             Denver – Speer Blvd.      $35,000                 1            $35,000

            Source: Child care center records.

            The GSA is responsible for complying with the Trible
            Amendment provisions. The GSA’s policy regarding the
            50 percent requirement is to evaluate each child care center
            that falls short of the requirement on a case-by-case basis.
            The GSA has not established a minimum Federal
            Government enrollment threshold below which centers are
            automatically closed. The GSA generally will not close a
            child care center unless there is not enough overall demand
            to make it viable for a provider to operate the center or the
            center requires a major investment to keep it operating.
            The head of the GSA’s Child Care Program advised us the
            most prominent reason the child care centers are not in
            compliance with the 50 percent requirement is that there are

                                                                                Page 5
                       Improved Policies and Accounting Are Needed
                                  for Child Care Centers

                                   fewer Federal Government employees with young children
                                   on the rolls than there were in the past. Secondary reasons
                                   for the problem include the following:
                                   .. Because of the importance of continuity in a child’s care
                                      and education, it is the policy of the GSA that children
                                      whose parents are not Federal Government employees
                                      are allowed to remain in a child care center even though
                                      children of Federal Government employees are on the
                                      waiting list.
                                   .. The waiting list is generally by age group because of the
                                      type of care and facilities provided to each age group.
                                      Vacancies cannot be filled by children on the waiting list
                                      unless there is an opening in their specific age group.
                                   .. In the 2 centers that were below the 50 percent
                                      requirement, the number of Federal Government
                                      employees wanting to use the program was not very
                                      high. Even if all the children of Federal Government
                                      employees on the waiting lists were placed in the
                                      2 centers, the percentage of children of Federal
                                      Government employees would still only be 49 percent
                                      …….. and 27 percent (Denver – Speer Blvd.).
                                   Because of the GSA’s method of allocating costs to Federal
                                   Government agencies based on square footage occupied
                                   rather than child care enrollment, the IRS and other Federal
                                   Government agencies must pay a fixed amount regardless of
                                   the number of employees us ing the child care facilities.
                                   Agencies cannot opt out of paying for joint use facilities
                                   even if their employees use none or only some of the
                                   facilities offered. Thus, there is little the IRS can do to
                                   reduce its payment to the GSA when employee participation
                                   in child care centers declines. Therefore, we are making no
                                   recommendations to the IRS related to this area.
                                   Child care expenses are often the second or third largest
Administration of the Child Care
                                   monthly exp ense Federal Government employees face;
Subsidy Program Needs to Be
                                   many lower-paid Federal Government workers are unable to
Improved                           afford quality child care. During 2001, the Congress
                                   enacted a law that gave Federal Government agencies the
                                   authority to assist lower- income employees by paying a


                                                                                          Page 6
Improved Policies and Accounting Are Needed
           for Child Care Centers

            portion of their child care expenses. 6 The legislation
            authorized agencies to use Federal Government funds to
            subsidize the cost of child care for lower- income employees
            to help make high-quality, licensed child care centers
            affordable. 7
            The law gave agencies the flexibility to determine whether
            to make the child care subsidy available, the amount of the
            subsidy, and the maximum income levels that employees
            could earn and still qualify. The IRS made the child care
            subsidy available to IRS employees with a combined family
            income of less than $45,000 a year. However, the IRS has
            been inconsistent in the subsidy amounts it has paid and the
            time periods in which it has made the subsidy available. In
            2001, when the child care subsidy was offered in a pilot
            program, the subsidy was approximately $300 per month
            and was paid for 9 months (January through September).
            During 2002, the subsidy was $600 per month and was paid
            for 3 months (July, August, and September). In 2003, the
            subsidy was reduced to $200 per month and was paid for
            3 months (July, August, and September) retroactively at the
            end of the fiscal year. Because of the inconsistency, the
            subsidy has had less and less effect on employees’ ability to
            afford child care. For comparison, Tables 3 and 4 show the
            IRS’ authorized child care subsidies for the last 3 years and
            the 2003 tuitions for the child care centers we visited.
            Table 3: IRS Child Care Subsidy (Fiscal Years 2001 through 2003)

                        Number of      Monthly Amount                  Maximum Annual
                                                        Number of
                Year    Employees       Authorized by                  Amount Paid Per
                                                      Months Available
                       Participating      the IRS                         Employee

                2001       354               $300            9              $2,700
                2002       546               $600            3              $1,800
                2003       341               $200            3               $600

            Source: IRS records.




            6
             Public Law 106-58 § 643 (2001).
            7
             Agencies’ participation is voluntary. Agencies do not receive
            additional funds to provide this benefit; money to pay for subsidies
            generally comes from within the agencies’ existing budgets for salaries.
                                                                               Page 7
Improved Policies and Accounting Are Needed
           for Child Care Centers

               Table 4: Tuition at the Four Child Care Centers Visited (2003)

                                    Monthly Tuition (Federal Government)    Average
            Child Care Center
                                                                           Annual Cost
                                     Infants     Toddlers   Pre -School

             7, 8-------             $841          $785        $633          $9,036
             ------- -               $630          $565        $480          $6,700
             Denver – Fed Center     $910          $750        $659          $9,276
             Denver – Speer Blvd.    $782          $687        $600          $8,276

            Source: Child care center records.

            Decisions about the amount and period of the child care
            subsidy were made late in the year for Fiscal Years 2002
            and 2003. In 2004, the IRS has not yet made a decision as
            to whether the child care subsidy will be available at all.
            According to the Office of Personnel Management, of the
            26 agencies that participate in the Child Care Subsidy
            Program, the IRS is the only agency that does not factor the
            Program into the budget at the beginning of the year and
            does not pay the subsidy for the full year. As a result, IRS
            employees cannot rely upon the subsidy to make child care
            plans.
            The manner in which the IRS administers the child care
            subsidy does not appear to be consistent with the intended
            benefits of the Child Care Subsidy Program. The Subsidy
            Program is advertised to prospective IRS employees as a
            benefit, but, given the variance in the subsidy amounts and
            the lack of assurance as to whether it will be paid at all, it
            does not significantly improve the ability of employees to
            afford licensed or regulated child care. Employees are not
            satisfied with the IRS Child Care Subsidy Program, and it is
            not widely used.
            Another consequence of not having a viable Child Care
            Subsidy Program is that administrative costs increase
            dramatically on a percentage basis. Administrative costs
            have generally increased every year, and the reduced child
            care subsidy paid out in 2003 resulted in the IRS paying the
            contractor approximately 47 percent of the total amount of
            the subsidy. That year the IRS paid a contractor $76,650 to
            distribute $164,500 in child care subsidies. We questioned
            the need for such a high fee and were informed that the
            extremely short starting date of the contract, additional
                                                                                Page 8
Improved Policies and Accounting Are Needed
           for Child Care Centers

            reporting requirements for the contractor, and the low
            subsidy payout amount all contributed to the high contractor
            expense on a percentage basis. This is in sharp contrast to
            the average cost paid by other Federal Government agencies
            to distribute the child care subsidy. The average cost paid
            by other Federal Government agencies is about 8 percent of
            the total amount of the subsidy.
            Table 5 shows the costs paid by the IRS to distribute the
            subsidy for each of the last 3 years.
                         Table 5: Costs to Distribute the Child Care Subsidy

                Fiscal      Total Child Care Amount Paid to Contractor
                                                                          Percentage
                Year         Subsidies Paid   to Distribute the Subsidy

                2001                 *                  $42,000                *
                2002            $460,600                $50,000                11%
                2003            $164,500                $76,650                47%

            Source: IRS Worklife and Special Programs Branch.

            While the IRS is not required to offer a child care subsidy, if
            it chooses to offer the subsidy to its employees and
            promotes the subsidy as an employee benefit, the Program
            should be sufficiently funded to ensure the subsidy can be
            distributed throughout the year.

            Recommendation

            2. The Chief Human Capital Officer should determine
               whether the IRS can fund the Child Care Subsidy
               Program at a level that would make the Program a viable
               benefit for lower-income employees for a full year.
            Management’s Response: The IRS has suspended funding
            for the Child Care Subsidy Program because it has failed to
            directly support recruitment and retention objectives.




            *
             The IRS did not track the amount of the child care subsidy paid in
            2001.
                                                                               Page 9
                               Improved Policies and Accounting Are Needed
                                          for Child Care Centers

                                            The IRS campuses we visited in 7, 8------------------
7, 8-------------------------------------
                                            7, 8--------------------------contain child care centers for the
-------------------------------
                                            use of IRS employees. Both child care centers have excess
--------------------------------------
                                            capacity and room to accommodate children from the
------------------ -                        nearby community. In 7, 8---- 66 children from the
                                            community attend the child care center; 29 children from the
                                            community attend the child care center in 7, 8--------
                                            Children have to be dropped off and picked up each day at
                                            the child care centers, and 7, 8-------------------------------
                                            7, 8---------------------------------------------------------------
                                            ------------- -----------------------------------------------------------
                                            -------------------------------------- ------------------------------
                                            --------------------------------------------------
                                            ------------------------------------------------------------------------
                                            ----------------------------------------------------- -----------------
                                            -------------------------------------------------------------------------
                                            --------------------------------------------------------------------------
                                            ---------------------------------------------------------------------
                                            -------------------------------------------------------------------
                                            -- ---------------------------------------------------------------
                                            --------------------------------------------------------------------
                                            -------------------------------------------------
                                            ---------------------- - -----------------------------------------------
                                            --------------------------------------------------------------- -
                                            -----------------------------------------------------------------------
                                            -----------------------------------------------------------------
                                            -----------------------------------------------------------------
                                            ----------------------------------------------------------------------
                                            ------------------------------------ --------------------------------
                                            ----------------------------------------------------------------------
                                            -------------------------------------------------------------------------
                                            -------------------------------------------------------------------------
                                            -----------------------------------------------------------------------
                                            --------------------------------------- -
                                            During the time the 7, 8----Campus performed limited
                                            background checks, a total of 302 parents consented to the
                                            checks. The cost of the background checks was $6,342
                                            ($21 per parent). Of the 302 checks performed, 10 were


                                            8
                                                From January 17, 2001, to January 3, 2003.
                                                                                                             Page 10
Improved Policies and Accounting Are Needed
           for Child Care Centers

            expanded into investigative cases because additional
            information was needed about serious arrests that were
            uncovered during the checks. When a serious arrest is
            identified during a records check, information about the
            disposition of the criminal incident is needed and police
            records have to be researched. This additional research
            results in added expense because investigators are assigned
            the cases. The 10 cases cost the IRS an additional $2,737 to
            research; therefore, a total of $9,079 was spent on the
            302 parents who were checked ($30 per parent). The 7, 8----
            Campus was instructed by the AWSS office to stop
            performing these background checks because of the expense
            involved and because the AWSS office did not believe the
            checks were necessary.
            7, 8-------------------------------------------------------------
            ---------------------------------------------------------------
            ------------------------------------------------------------------------
            -------------------------------------------------------------------------
            ------------------------------- --

            Recommendation

            3. The Chief Human Capital Officer and Chief, Mission
               Assurance, should work together to apply adequate
               screening or background check procedures to parents
               that are not IRS employees before providing them
               access to IRS campus grounds.
            Management’s Response: The IRS did not agree with this
            recommendation and does not plan to take any corrective
            action. The IRS believes the risk level is low because only
            authorized parents are allowed on the campus grounds and
            child care centers are compartmentalized so that access is
            limited to the child care center only. Also, the IRS does not
            have the authority to deny enrollment in a GSA child care
            center.
            Office of Audit Comment: While we agree the IRS does not
            have the authority to deny enrollment in a GSA child care
            center, we still believe the IRS should either adequately
            screen individuals without Federal Government credentials
            or subject them to a limited background check before

                                                                             Page 11
Improved Policies and Accounting Are Needed
           for Child Care Centers

            providing them access to IRS campus grounds. We did not
            recommend that individuals be denied enrollment in child
            care centers.




                                                              Page 12
                          Improved Policies and Accounting Are Needed
                                     for Child Care Centers

                                                                                                   Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this audit was to determine whether the costs paid by the Internal
Revenue Service (IRS) for child care centers are commensurate with the benefits received. We
conducted this audit because of concerns expressed by the IRS over the high costs paid by the
Federal Government for child care centers. To accomplish this objective, we:
I.      Interviewed IRS and General Services Administration officials to determine the roles and
        responsibilities for managing and maintaining child care centers.
        A. Determined whether records exist that provide the number of IRS employees who use
           child care centers.
        B. Determined whether records exist that provide the IRS’ costs for child care centers.
        C. Determined whether the IRS has evaluated the costs and benefits of the child care
           centers.
II.     Determined whether children of the IRS and other Federal Government employees were
        given priority for placement in child care centers in Federal Government facilities, as
        required by law.
III.    Visited a judgmental sample of four child care centers (two IRS campus 1 centers and
        two other centers) to obtain information about the number of children enrolled, range of
        tuition charged, square footage, age of centers, security, appearance, and condition of
        centers, and to determine whether the centers were in compliance with the Trible
        Amendment. A judgmental sample was selected because it was not practical to visit a
        statistical sample of child care centers due to the small population of centers (47 centers)
        and because we did not plan to project the results of field visits.
IV.     Determined how the IRS has implemented the Child Care Subsidy Program that was
        authorized on November 12, 2001, by Public Law 107-67.
        A. Interviewed IRS and Office of Personnel Management officials to obtain information
           about the administration of the Child Care Subsidy Program.




1
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the computing centers for analysis and posting to taxpayer accounts.


                                                                                                          Page 13
             Improved Policies and Accounting Are Needed
                        for Child Care Centers

B. Reviewed Program documentation and identified the amount of money allocated to
   the Program, the amount of money actually spent, the number of employees who
   received assistance, and how employees were selected to receive assistance for
   Fiscal Years 2002 and 2003.




                                                                             Page 14
                     Improved Policies and Accounting Are Needed
                                for Child Care Centers

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Michael E. McKenney, Director
Kevin P. Riley, Audit Manager
Tom J. Cypert, Lead Auditor
Michael J. Della Ripa, Auditor
William E. Thompson, Auditor




                                                                                      Page 15
                     Improved Policies and Accounting Are Needed
                                for Child Care Centers

                                                                   Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Chief, Agency-Wide Shared Services OS:A
Chief Financial Officer OS:CFO
Chief Human Capital Officer OS:HC
Chief, Mission Assurance OS:MA
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Chief, Agency-Wide Shared Services OS:A
       Chief Financial Officer OS:CFO
       Chief Human Capital Officer OS:HC
       Chief, Mission Assurance OS:MA




                                                                        Page 16
       Improved Policies and Accounting Are Needed
                  for Child Care Centers

                                                     Appendix IV


       Management’s Response to the Draft Report




7, 8




                                                          Page 17
       Improved Policies and Accounting Are Needed
                  for Child Care Centers




7, 8




                                                     Page 18
Improved Policies and Accounting Are Needed
           for Child Care Centers




                                              Page 19
       Improved Policies and Accounting Are Needed
                  for Child Care Centers




7, 8




                                                     Page 20
